     APPALACHIAN REGIONAL COMMISSION
       OFFICE OF INSPECTOR GENERAL
            AUDIT OF GRANT AWARD
Southern Tier East Regional Planning Development Board
                 Binghamton, New York




              Final Report Number: 13-30
             Project Number: NY-2324-C41
                      August 2013




                      Prepared by
              Leon Snead & Company, P.C.
                                                    TABLE OF CONTENTS



Background ......................................................................................................................................1

Objectives, Scope, and Methodology ..............................................................................................1

Summary of Audit Results ...............................................................................................................2

Findings and Recommendations ......................................................................................................3

           A. Support Documentation for Salary Costs ......................................................................3

           B. Grant Performance Measure Reporting..........................................................................5

General Comments...........................................................................................................................7

Grantee Response - Appendix I…...................................................................................................8




                                                                        i
Background

Leon Snead & Company, P.C. completed an audit of grant number NY-2324-C41 awarded by
the Appalachian Regional Commission (ARC) to the Southern Tier East Regional Planning
Development Board (STE). The audit was made at the request of the ARC, Office of the
Inspector General, to assist the office in its oversight of ARC grant funds.

STE is a special purpose unit of government, created under New York State laws, to serve as a
Local Development District (LDD) for coordinating the Appalachian Region Program in eight
New York counties. The LDD is part of a Federal-State-Local partnership that provides
comprehensive regional strategies for community and economic development by leveraging
resources to meet the needs of the region. It operates under a joint resolution of the eight
member counties. The board members of the LDD are appointed by the respective county
legislatures. Operational and program activities are performed by a board staff of eight
employees managed by a director from the main office located in Binghamton, New York. The
majority of funding for operations comes from Federal and State sources, with a smaller amount
from the member counties. The LDD also receives support through in-kind services from its
member counties and other groups such as universities.

Grant NY-2324-C41 covered the period January 1 through December 31, 2012, provided
$378,000 in ARC funds and required $234,000 in non-ARC match funding. The ARC funds
were primarily for salary costs for the staff to manage the LDD-related activities, but also
included some travel, rent, and other costs. The grant also included funding for continuing a
Roads Inventory Project that was previously funded as a separate ARC grant. The grant had
been completed and the final reports submitted, but the grant had not been closed at the time of
the audit. The total project cost reported under the grant was $759,324.

Objectives, Scope, and Methodology

The audit objectives were to determine whether: (1) program funds were managed in accordance
with the ARC and federal grant requirements; (2) internal grant guidelines, including program
(internal) controls, were adequate and operating effectively; (3) accounting and reporting
requirements were implemented in accordance with generally accepted accounting principles (or
other applicable accounting and reporting requirements); and (4) the matching requirements and
the goals and objectives of the grant were met.

We reviewed the documentation provided and interviewed the LDD staff to obtain an overall
understanding of the grant activities, the accounting system, and the operating procedures. We
selected for testing a sample of $99,378 in expenditures from the total of $378,000 reimbursed
by ARC during the grant period to determine whether the charges were properly supported and
allowable. We reviewed the LDD’s administrative procedures and related internal controls to
determine if they were adequate to administer the grant funds. In addition, we reviewed the most
recent Single Audit report to determine whether there were any issues that impacted the ARC
grant.




Leon Snead & Company, P.C.                 1
The primary criteria used in performing the audit were the specific grant terms and requirements,
applicable Office of Management and Budget Circulars, and relevant parts of the ARC Code.
The audit was performed in accordance with the Government Auditing Standards. The fieldwork
was performed during the period of May 20-29, 2013, including on-site work at the LDD office
in Binghamton, New York. The audit results were discussed with the LDD representatives at the
conclusion of the on-site visit.

Summary of Audit Results

We identified a weakness in the procedures used to record employee time charges and salary
costs to the grant. As a result, we identified $209,834 charged to the grant that was not
adequately supported. We could not accurately assess the overall grant achievements because
the reported performance results contained inaccurate and inconsistent data, and in some
instances did not have adequate documented support. These issues and our recommended
corrective actions are discussed in detail in the Findings and Recommendations section of the
report. An additional observation concerning the LDD accounting system, for which formal
recommendations are not being made, is presented in the report under General Comments for
management consideration.




Leon Snead & Company, P.C.                 2
                                Findings and Recommendations

A. Support Documentation for Salary Costs

The personnel time records used to calculate salary costs charged to the grant did not meet the
federal requirements. As a result, $209,834 in salary costs charged to the grant lacked adequate
supporting documentation.
The Cost Principles applicable to the LDD contained in the Office of Management and Budget
Circular (OMB) A-87 require salary costs to be supported by personnel activity reports when the
employee’s salary costs are charged for work on more than one project or activity. The activity
reports must meet several standards, including documenting the total time, be an after-the-fact
distribution of the actual activities of the employee, and signed by the employee. All of the
employees, whose salary costs were charged to the ARC grant, typically worked on more than
one project or activity.
The board’s policies required employees to maintain bi-weekly timesheets to document their
hours for which they were paid. Prior to September 2011, the board used a timesheet format that
fully met the A-87 standards and provided excellent support for the amounts charged to ARC.
The employee was required to record both the total hours worked and a distribution of time on
each project or activity, and to sign the timesheet certifying that the hours claimed and their
assignment to the projects were correct. In addition, a supervisor had to sign the timesheet
approving it. However, the policy and the timesheet format were changed in September 2011 to
require the employee only to enter the total number of hours worked without having to show any
distribution of the total to any specific projects or activities. The employee still had to sign the
timesheet and certify to the total hours claimed. The allocation of the total hours to individual
projects was done by the LDD fiscal officer, who entered the charges into the accounting
records. All of the timesheets in our sample of 2012 salary costs charged to the grant were in the
new format and only documented the total hours.
We were provided a report from the financial system for the 2012 time periods and amounts we
were testing that showed how the total hours were allocated to various projects. Sometimes the
total salary amount (related to the total hours shown on the timesheet) was charged to the ARC
grant; sometimes the total salary amount was charged to several projects including the ARC
grant. This allocation (the percentage used) was being decided by the fiscal officer at the time of
entering salary costs into their accounting records. The fiscal officer told us that it was primarily
based on her knowledge of what activities the employees worked on and that the actual breakout
was not routinely shown to or discussed with the employees for them to verify. We did not have
an adequate basis to evaluate or question the level of knowledge of the fiscal officer about
employee actual work efforts, or the accuracy of the actual distribution recorded. However, we
do not consider the allocation process and timesheet format used to be in compliance with the
federal requirements. Our review of salary costs charged to grant NY-2324-C41 indicated that
$85,919 did not have adequate supporting documentation. Since the same timekeeping format
was used for the entire grant period, we concluded that the total $209,834 charged to the grant
was not adequately supported.



Leon Snead & Company, P.C.                   3
Recommendations

The LDD should:

   1. Adopt a time keeping system that requires the employee to show a distribution of time
      charges by grant or project number.

   2. Adjust the amounts in the accounting records charged to the grant as necessary and
      refund any amounts due to ARC (with a corrected SF-269).

   3. Ensure that all salary costs charged to the current grant (NY-2324-C42) for 2013 are
      supported and properly allocated.

Grantee Response

The LDD stated in its response that all personnel time records for the period in question were re-
certified by personnel to meet the federal guidelines and provide adequate supporting
documentation as detailed in OMB Circular A-87. The LDD also stated that based upon its
review there were no changes to the hours worked/billed per program and that all timesheets
currently meet the recommended guidelines for providing adequate documentation. In addition,
the LDD stated in its response that it would gladly provide any supporting material requested.

Reviewer’s Comments

The response provided by the grantee is sufficient to close out the three recommendations.




Leon Snead & Company, P.C.                  4
B. Grant Performance Measure Reporting
Although the grantee established numerous goals and objectives (performance measures), the
grant performance results reported in the final project report contained inaccurate data and
inconsistencies, and in some instances did not have adequate supporting documentation. This
was due to several factors including misunderstanding the reporting requirements, errors, and
lacking procedures to collect and verify the data necessary to fully and accurately report the
results. The reported results did not provide a basis to accurately assess overall grant
achievements.

The approved LDD work-plan that was incorporated into the grant award contained many
individual goals and objectives, which related to the ARC goals for LDDs. Each of these
broader goals had several subtasks and related work elements. The submitted work-plan
described the LDD's planned actions and activities regarding these tasks and work elements.

In relation to performance measurements, the ARC provided a format for specific information to
be submitted. There were two specific "measures" listed for reporting results: (a) showing the
anticipated sources of the LDD funds and related amounts and (b) listing the various anticipated
funding sources with related numbers of projects and amounts and showing anticipated project
outcomes such as numbers of jobs created or retained, employability (workforce training),
amount of infrastructure development, and amount of private sector investment.

For the anticipated results, they expected to have six funding sources for a total $1,174,000 to
support the LDD administrative operations and 12 projects totaling $9,703,409 for non-ARC
grants. The LDD also estimated that 586 jobs would be created or retained, 64 participants
would complete workforce training, 26,000 feet of water and wastewater lines would be installed
and $42,750,000 in private sector investment would be obtained.

We identified several problems with the information reported to ARC on the results of
established performance measures. There were errors in the data reported, which resulted in the
report being inaccurate and misleading. For example, the report submitted to ARC showed four
EDA projects with a total of $82,000,000. The data in supporting documents provided to us
showed a total of $68,241,562 for these four projects. Also, the reported jobs created or retained
showed 480 created and 970 retained but the supporting data showed 480 created and 1,450
retained. In discussing the supporting information, we were told the data for some measures had
been updated after the final report was submitted to ARC (in preparing for our visit and review)
and some numbers changed because the analyst had re-interpreted ARC guidance and decided it
was appropriate to include anticipated future results on some projects (for example, new or
retained jobs).

Also, there were a number of non-ARC activities that did not have any reported results - i.e.,
reported as zero. In discussing these, the LDD analyst preparing the data and report indicated
there might have been results from some of the projects but the data was not readily available.
This was primarily because no actions had been taken by the LDD staff at the beginning of the
grant period to identify the exact data needed to satisfy the final reporting requirements and to
establish methods for collecting and verifying that data.


Leon Snead & Company, P.C.                  5
In our opinion, the number and nature of issues identified raises questions about the accuracy and
usefulness of the final report, especially regarding the reported results on performance measures.

Recommendation

The LDD should establish procedures to ensure that the final project report is accurate and
consistent with the reporting requirements, including: (a) ensuring that the staff preparing the
report fully understand the requirements; (b) obtaining ARC guidance or clarification as needed;
(c) identifying the specific data needed to properly report actual results on each performance
measure; (d) establishing the methods and agreements necessary to obtain and verify the required
data; and (e) reviewing the report prior to submission to ensure it is complete, accurate, and in
the proper format.

Grantee Response

The LDD stated in its response that all documentation provided in reference to grant
performance reporting was accurate at the time of submission. The LDD also stated that as with
many projects and proposals, they make best estimates based on information available at the
given time. However, the LDD stated that there are improvements that it can and are making in
accordance with the audit recommendations. Those include: dedicated staffing to familiarize
themselves with the reporting requirements and supporting documentation of the grant; working
closely with both State and Federal ARC offices to obtain any needed guidance, understand and
identify performance measures and supporting data needed; establish sound outcome
measurements; and ensuring reports follow contractual agreement formats. In addition, the LDD
stated in its response that it would gladly provide any supporting material requested.

Reviewer’s Comments

The response provided by the grantee is sufficient to close out the recommendation.




Leon Snead & Company, P.C.                  6
General Comments

The current accounting system used by the LDD to record, process, and report financial
transactions on the ARC grant and other activities is essentially a very old (15-20 years) set of
EXCEL spreadsheets with equally old formulas for allocating and recording costs. We were told
that there have been changes to them over the years, but these changes are not very well
documented. In addition, the only staff person that routinely maintains and seems to understand
the system, spreadsheets, formulas, and other financial records is the fiscal officer. We requested
several financial reports on grant expenditures to perform our review and testing procedures. We
were eventually given some reports and data; however, the formats and content were not readily
useful and required considerable time and effort for both the staff to produce them and us to use
and understand them.

Although the system used to record and administer the grant funds meets what would be
considered the minimum requirements for an acceptable system and process, we believe it would
greatly improve the LDD’s financial processes and reliability of the records and data if a more
standard and widely accepted financial accounting software, such as QuickBooks, was used.
Accordingly, we suggest that the director explore the options and costs, including determining
what other LDDs use, and seek the board’s approval to implement a cost-effective system. We
also suggest that the written policies be reviewed and updated to reflect any new or changed
requirements resulting from any system or software changes that are implemented.

The LDD stated in its written response that its accounting system was being migrated into
QuickBooks and procedures were being implemented to cross train the staff on the new system.




Leon Snead & Company, P.C.                  7
                                Appendix I
                             Grantee Response




Leon Snead & Company, P.C.       8
